Report No. D-2011-078               June 30, 2011




   Contracts Supporting Base Operations in Kuwait Need
         Stronger Management and Administration
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC-RI                        Army Contracting Command-Rock Island
ASP                           Ammunition Supply Point
CSSC-K                        Combat Support Services Contract-Kuwait
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
DoD IG                        Department of Defense Inspector General
FAR                           Federal Acquisition Regulation
IUID                          Item Unique Identification
K-BOSSS                       Kuwait Base Operations and Security Support Services
OUSD AT&L                     Office of the Under Secretary of Defense for Acquisition,
                                 Technology and Logistics
PCO                           Procuring Contracting Officer
PWS                           Performance Work Statement
SSA                           Supply Support Activity
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704

                                                                            June 30, 2011

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Contracts Supporting Base Operations in Kuwait Need Stronger
         Management and Administration (Report No D-2011-078)

We are providing this report for review and comment. We performed this audit as a
second in a series ofreports on contracts supporting base operations in Kuwait. Rock
Island Contracting Center can improve contract management and administration in the
Kuwait Base Operations and Security Support Services, Supply Support Activity, and
Ammunition Supply Point contracts by implementing a recurring process to validate user
requirements, establishing fixed-priced requirements, and implementing adequate
property accountability. We considered management comments on a draft of this report
when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. While
most comments from the Executive Director, Army Contracting Command-Rock Island,
were responsive and require no further comment, we request additional comments and
documentation for Recommendation I.e by August 30, 2011.

If possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. Weare unable to accept the !Signed! symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).




                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-078 (Project No. D2009-D000AS-0266.003)                      June 30, 2011

               Results in Brief: Contracts Supporting Base
               Operations in Kuwait Need Stronger
               Management and Administration
                                                         problems such as unplanned cost growth and
What We Did                                              weak accountability for DoD assets.
This is the second in a series of reports on the
contracts supporting base operations in Kuwait.          What We Recommend
Our overall audit objective was to determine if          We recommend that the Executive Director,
DoD properly managed and administered the                ACC-RI, direct the procuring contracting
contract supporting base operations in Kuwait.           officers for the K-BOSSS, SSA, and ASP
In this report, we evaluated the Kuwait Base             contracts to:
Operations and Security Support Services                     • implement a recurring process to
(K-BOSSS) contract, valued at $1.3 billion;                      validate user requirements with the
Supply Support Activity (SSA) contract, valued                   requiring military units and develop a
at $177 million; and Ammunition Supply Point                     central repository for all performance
(ASP) contract, valued at $103 million.                          requirements and any updates,
                                                             • establish fixed prices where appropriate,
What We Found                                                • perform detailed reviews of contractor
Army Contracting Command-Rock Island                             invoices, and
(ACC-RI) officials did not implement quality                 • include the item unique identification
contracting processes before awarding the                        requirement in the contracts.
K-BOSSS, SSA, and ASP contracts.
Specifically, ACC-RI officials did not                   Management Comments and
implement a recurring process to validate                Our Response
contract requirements, establish fixed prices to
control costs, or implement adequate property            We received comments from the Executive
accountability. This occurred because ACC-RI             Deputy to the Commanding General, U.S. Army
officials did not properly plan for the transition       Materiel Command, dated June 8, 2011. He
to the K-BOSSS, SSA, and ASP contracts.                  endorsed comments from the Executive
DoD Inspector General Report No. D-2010-059,             Director, U.S. Army Contracting Command,
“Contingency Contracting: A Framework for                and the Executive Director, ACC-RI. The
Reform,” May 14, 2010, identifies systemic               Executive Director, ACC-RI, comments were
contracting issues in DoD, to include                    responsive to most of the recommendations and
requirements generation, cost controls, and              he provided documentation to support actions
property accountability. The report identifies           taken. Even when the Executive Director only
best practices in contracting that would help            partially agreed, his planned actions and actions
improve contracting processes for the                    taken met the intent of the recommendations for
K-BOSSS, SSA, and ASP contracts.                         all but one recommendation. For one
                                                         recommendation, we require additional
ACC-RI officials should implement                        comments and more documentation. Please see
improvements for validating performance                  the recommendations table on the back of this
requirements, establishing fixed prices, and             page.
implementing property accountability to avoid


                                                     i
Report No. D-2011-078 (Project No. D2009-D000AS-0266.003)           June 30, 2011

Recommendations Table

         Management                    Recommendation        No Additional Comments
                                      Requiring Comment               Required
Executive Director, ACC-RI      1.e                         1.a-d, 1.f-g


Please provide comments by August 30, 2011.




                                           ii
Table of Contents

Introduction                                                         1

      Objectives                                                     1
      Background                                                     1
      Review of Internal Controls                                    3

Finding. Kuwait Base Operations Contracts Must Correct Identified
         Deficiencies                                                4

      Contract Management Improvements Needed                        4
      Property Accountability Was Not Established                    6
      Conclusion                                                     8
      Management Comments on the Finding and Our Response            8
      Recommendations, Management Comments, and Our Response         8

Appendix. Scope and Methodology                                     13

      Use of Computer-Processed Data                                14
      Prior Coverage                                                14

Management Comments                                                 16

      U.S. Army Materiel Command                                    16
      U.S. Army Contracting Command                                 17
      U.S. Army Contracting Command-Rock Island                     18
Introduction
Objectives
This is the second in a series of audit reports on the contract supporting base operations in
Kuwait. Our overall audit objective was to determine whether DoD properly managed
and administered the contract supporting base operations in Kuwait in accordance with
Federal and DoD policies. Our first report, Report No. D-2010-085, “Kuwait Contractors
Working in Sensitive Positions Without Security Clearances or CACs,”
September 22, 2010, focused on management of the contractor’s security program and
contractor security clearances. This report focuses on areas that the Army Contracting
Command (ACC-RI) officials should improve in management and administration of the
Kuwait Base Operations and Security Support Services (K-BOSSS), Supply Support
Activity (SSA), and Ammunition Supply Point (ASP) contracts. See the appendix for a
discussion of our scope and methodology.

We performed this audit pursuant to Public Law 110-181, "National Defense
Authorization Act for Fiscal Year 2008," section 842, "Investigation of Waste, Fraud, and
Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,"
January 28, 2008. Section 842 requires

       thorough audits…to identify potential waste, fraud, and abuse in the performance of
       (1) Department of Defense contracts, subcontracts, and task and delivery orders for the
       logistical support of coalition forces in Iraq and Afghanistan; and (2) Federal agency
       contracts, subcontracts, and task and delivery orders for the performance of security and
       reconstruction functions in Iraq and Afghanistan.

The K-BOSSS, SSA, and ASP contracts will support base operations in Kuwait,
to include logistical support of troops and equipment to and from Iraq and
Afghanistan.


Background
The U.S. Army Atlantic Contracting Center awarded the Combat Support Services
Contract-Kuwait (CSSC-K), contract DASA02-99-C-1234, in July 1999, for an estimated
value of $503 million if all 9 option years were exercised. The CSSC-K contract was
awarded as a cost-plus-award-fee contract. These contract types use an estimate of total
cost to obligate funds and establish a ceiling that the contractor may not exceed, except at
its own risk, without the approval of the procuring contracting officer (PCO).

The Army Contracting Command Kuwait managed the CSSC-K contract until
November 2007 when, due to contracting related fraud and quality issues outside the
continental United States, the Secretary of the Army transferred contract management
responsibility to ACC-RI. When ACC-RI assumed management responsibility, the
CSSC-K contract had increased from $503 million to $1.9 billion in 8 years. The CSSC-
K contract was scheduled to end in September 2009; however, ACC-RI officials


                                                  1
extended the period of the CSSC-K contract five additional times through September
2011. The five contract extensions, as well as additional funding authorized throughout
the contract, increased the contract value to more than $3.6 billion with 369 contract
modifications.

The ACC-RI PCO separated the CSSC-K contract work into three areas and awarded
three separate contracts: K-BOSSS, SSA, and ASP. 1 The three follow-on contracts, like
the CSSC-K contract, all support base operations in Kuwait. The three performance
contractors perform work at Camps Arifjan, Buehring, and Virginia; Khabari Crossing;
Ali Al Salem; Al Jalaia; Udairi Range; Kuwait Navy Base; Airport Point of Debarkation;
and Military Sea Port of Debarkation.

ACC-RI officials awarded the K-BOSSS contract, W52P1J-10-C-0062, on
September 29, 2010, for a potential total value of approximately $1.3 billion if all option
years are exercised. The K-BOSSS contract included the majority of the work from the
CSSC-K contract. The base year of the K-BOSSS contract included a phase-in period
from November 2010 through February 2011, and a period of performance from
February 13, 2011, through September 28, 2011. The K-BOSSS period of performance
dates were the same as the period of performance for the closeout of the CSSC-K
contract.

On December 30, 2010, the ACC-RI PCO awarded the SSA contract, W52P1J-11-C-
0019, for a potential total value of $177 million if all option years are exercised. The
SSA contract was for performance of the SSA warehouse operations for all serviceable
and unserviceable U.S. equipment and classes of supply with the exception of Class I
(Subsistence), Class IIIB (Bulk Fuel), Class V (Ammunition), Class VI (Personal
Demand Items), Class VII (Major End Items), Class VIII (Medical), and COMSEC
(Communications Security) controlled items and equipment. Also on
December 30, 2010, ACC-RI officials awarded the ASP contract, W52P1J-11-C-0005,
for a potential total value of $103 million, if all option years are exercised. The ASP
contract was for performance of the ASP and Theater Storage Area functions. The
ASP/Theater Storage Area received, stored, and shipped containerized and break bulk
munitions and issued, configured, and maintained theater reserve munitions. The
contractor also conducted maintenance and repacking operations for munitions and
residue.




1
  Another contract was awarded to another contractor in September 2009, for Force-on-Force Training,
originally part of the CSSC-K contract. That contract was not within the scope of our audit since RICC did
not manage that contract. The breakout of the CSSC-K services aligned for these contracts is shown in the
figure.


                                                    2
   Figure. Kuwait Base Operation Services Provided Under Follow-on Contracts



                                                                          K-BOSSS
                                                                          ASP
                                                                          SSA
                                                                          Force-on-Force
                                                                            Training*




*Source: Rock Island Contracting Center



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. ACC-RI officials did not
implement all necessary controls to properly manage and administer the three follow-on
contracts: K-BOSSS, SSA, and ASP. Specifically, ACC-RI officials did not implement
controls for validating requirements, controlling costs, and establishing adequate property
accountability before awarding contracts. We will provide a copy of the report to the
senior officials responsible for internal controls in the Army.




                                            3
Finding. Kuwait Base Operations Contracts
Must Correct Identified Deficiencies
ACC-RI officials did not implement quality contracting processes before awarding the
K-BOSSS, SSA, and ASP contracts. Specifically, ACC-RI officials did not:

   •   implement a recurring process to validate requirements,
   •   establish fixed-price requirements to control costs, or
   •   institute adequate property accountability.

This occurred because ACC-RI officials did not properly plan for the transition to the
follow-on contracts. Unless ACC-RI officials improve contracting processes for
requirements, cost controls, and property accountability, ACC-RI officials will have
problems such as unplanned contract cost growth and inadequate accountability for DoD
assets on the K-BOSSS, SSA, and ASP contracts.

Contract Management Improvements Needed
ACC-RI officials did not properly plan for the transition to the K-BOSSS, SSA, and ASP
contracts. The contract pre-award phase consists of developing requirements, planning
the acquisition, and issuing the solicitation. Before issuing the solicitation, Government
officials must define measurable requirements in clear, specific, and objective terms in a
performance work statement (PWS) and develop an acquisition plan that outlines how
they will fulfill the contract in a timely manner and at a reasonable cost. However,
ACC-RI officials did not implement a recurring process to validate contract requirements
or provide controls for contract costs. DoD Inspector General (DoD IG) Report
No. D-2010-059, “Contingency Contracting: A Framework for Reform,” May 14, 2010,
identified the top 10 systemic contracting issues in DoD. The report identified both
requirements generation and cost controls as systemic contracting issues within DoD.
The report identified actions that ACC-RI officials could take to improve their
contracting processes and avoid these issues on the K-BOSSS, SSA, and ASP contracts.

Performance Requirements
Contracting activities and their customers should consider technical needs and business
strategies when defining and specifying requirements. ACC-RI officials validated the
requirements before awarding the K-BOSSS, SSA, and ASP contracts. However, due to
the continuously changing environment in Kuwait and the constant increase and decrease
of troops in surrounding countries, mission requirements fluctuate and should be
revalidated often.

The requirements were documented in the contract and outlined in the PWS. According
to Federal Acquisition Regulation (FAR) Subpart 2.1, “Definitions,” the PWS must
describe the required performance results in clear, specific, and objective terms with
measurable outcomes. FAR Part 46, “Quality Assurance,” requires Government
surveillance of contractor performance. The PWS includes the requirements for the


                                            4
contract and, therefore, must be comprehensive and available to Government surveillance
officials to validate that their reviews identify all contract requirements. ACC-RI
officials delegated contract administration and oversight to the Defense Contract
Management Agency (DCMA). Like military officials, DCMA personnel rotate every
6 months to 1 year within the Southwest Asia theater. Because of regular rotations of
oversight personnel, the ACC-RI PCO should develop a central repository for contract
and PWS documents to facilitate the establishment of complete contract files to assist
with recurring requirements revalidation.

ACC-RI officials included in the K-BOSSS, SSA, and ASP contracts the requirements in
objective terms with measurable outcomes; however, these actions alone will not ensure
good contract administration and oversight. Specifically, ACC-RI officials should:

   •   establish a recurring process to validate user requirements with the requiring
       military units to verify that the PWS adequately defines complete contract
       requirements;
   •   modify the K-BOSSS, SSA, and ASP contracts to match the validated user
       requirements as they change during the recurring validation process; and
   •   develop a central repository readily available to all personnel assigned to the
       K-BOSSS, SSA, and ASP contracts to maintain all PWS contract changes.

Cost Controls
Significant cost increases occurred with the previous Kuwait base support contract.
Acquisition planning includes developing the overall strategy for managing the
acquisition and includes cost estimates for the total planned procurement. ACC-RI
officials must have efficient contract cost controls in the K-BOSSS, SSA, and ASP
contracts to effectively measure cost, schedule, and performance risks and the plan for
mitigating those risks. ACC-RI officials could better manage these risks by negotiating
fair and reasonable prices for contract goods and services, conducting thorough reviews
of contractor invoices, and establishing fixed prices for known requirements.

ACC-RI officials did not establish fixed-price requirements in the K-BOSSS, SSA, and
ASP contracts. The FAR requires the Government to
develop an acquisition plan to fulfill the contract              ACC-RI officials did not
requirements in a timely manner and at a reasonable cost.          establish fixed-price
The acquisition plan should include the cost estimate and          requirements in the
the availability of funds. The Office of the Under              K-BOSSS, SSA, and ASP
Secretary of Defense for Acquisition, Technology, and                   contracts.
Logistics (OUSD AT&L) memorandum, “Better Buying Power: Guidance for Obtaining
Efficiency and Productivity in Defense Spending,” September 14, 2010, states that cost-
plus-award-fee contracts only provide limited motivation for cost discipline, and service
acquisitions should be predisposed toward cost-plus-fixed-fee or cost-plus-incentive-fee
contracts when robust competition or competitive pricing history does not exist, to build
sufficient cost knowledge of the services. However, when robust competition already
exists or recent competitive pricing history existed, Components should use fixed-price
contract arrangements.


                                             5
The ACC-RI officials responsible for award of the K-BOSSS, SSA, and ASP contracts
had at least 10 years of historical data and DCAA audits to determine Government cost
estimates. ACC-RI officials stated that they used cost-plus contracts for these three
contracts because the level of effort cannot always be determined in a contingency
environment. However, ACC-RI officials should have established fixed prices for
                                      portions of the contract with well-defined
    ACC-RI officials should use       requirements. While officials may not always know
    the historical data from the      the quantity of goods, officials can set fixed prices for
    CSSC-K contract to identify       goods such as towels, pallets, and ink cartridges that
   goods or services that should      are continuously ordered under the contract. ACC-RI
   be purchased at a fixed price      officials should use the historical data from the
    to help control costs for the     CSSC-K contract to identify goods or services that
      K-BOSSS, SSA, and ASP           should be purchased at a fixed price to help control
              contracts.              costs for the K-BOSSS, SSA, and ASP contracts.
                                      The OUSD AT&L memorandum states that
components should strengthen market research and develop research teams to better
understand industry capabilities and appropriate pricing for the services sought. The
PCO should identify fixed prices by using the information developed by the market
research teams. ACC-RI officials should, to the maximum extent possible, develop fixed
prices for items with sufficient price history.

Further, the ACC-RI PCO continuously increased funding to cover work under the
CSSC-K contract, and the contractor’s invoices did not identify unit prices or quantity.
Specifically, ACC-RI officials increased the ASP contract value by approximately
$216,000 in April 2011, and increased funding on the K-BOSSS contract by
approximately $133.5 million within the 5 months after contract award. To avoid cost
increases and ensure that the contractors only bill for allowable, allocable, and reasonable
costs, the ACC-RI PCO should perform periodic reviews of the contractor invoices.
These reviews should validate that all invoiced amounts are in accordance with the
contract and verify that DCMA officials perform all delegated billing responsibilities,
such as proper acceptance of supplies and services and proper validation of invoices.

Property Accountability Was Not Established
ACC-RI officials did not have complete property lists to include in the solicitation for the
K-BOSSS, SSA, and ASP contracts. As reported in the DoD IG report, “Contingency
Contracting: A Framework for Reform,” property accountability has been an ongoing
issue within DoD. Further, ACC-RI officials did not initially include the item unique
identification (IUID) property requirement clause in the K-BOSSS and ASP contracts
and still have not included the IUID property clause in the SSA contract.

Incomplete Government Property Lists
The previous contractor did not provide a complete Government property list to ACC-RI
officials to include in the solicitation for the K-BOSSS, SSA, and ASP contracts. The
previous contractor was required to maintain a list of Government property in its property



                                               6
system; however, the contractor’s property system was not approved. Due to the status of
the contractor’s property system, ACC-RI officials have no assurance that the property
records are accurate.

We compared the list generated from the previous contractor’s property system against
the property lists contractor officials submitted for the K-BOSSS, SSA, and ASP
solicitations. Of the 225 sensitive 2 and high-dollar items from our judgment sample of
contractor lists, we identified 41 items valued at approximately $3.3 million that were not
included on the K-BOSSS, SSA, and ASP solicitation property listings. ACC-RI
officials stated that the property lists were the best information available to the
Government at the time and that all property had transferred to the follow-on contractors
and, if necessary, added to the contracts. However, because ACC-RI officials did not
include all property in the solicitation property listings, the amount proposed by the
incoming performance contractor may not be adequate to perform the work on the
K-BOSSS, SSA, and ASP contracts.

Noncompliance With DoD IUID Registry Requirements
ACC-RI officials did not include the IUID 3 property requirement clause in the
solicitation or basic contract awards for the K-BOSSS, SSA, and ASP contracts even
though we informed ACC-RI officials in December 2009 of the 2008 IUID property
requirement. Although ACC-RI officials subsequently issued a modification that added
the IUID clause to the K-BOSSS and ASP contracts,
they still have not included the clause in the SSA           Although ACC-RI officials
contract. Defense Federal Acquisition Regulation               subsequently issued a
Supplement (DFARS) 252.211-7007, “Reporting of               modification that added the
Government-Furnished Equipment in the DOD IUID              IUID clause to the K-BOSSS
Registry,” established the IUID requirement to              and ASP contracts, they still
implement the use of IUID tags on all items over            have not included the clause
$5,000. The IUID Registry is a data repository that             in the SSA contract.
receives input from industry and Government sources and provides storage and access to
data that identifies and describes tangible personal property. The IUID property
requirement clause must be included in contracts with Government-furnished property
and requires the contractor to provide accountability and management of Government-
furnished equipment at the item level for sensitive items or items over $5,000.

The DFARS outlines specific requirements that the contractors’ property management
systems must meet in order to permit reporting of unique item identifiers to the DoD
IUID Registry. Since ACC-RI officials did not include the IUID requirement in the


2
  Sensitive property refers to property that is potentially dangerous to public safety or security if stolen,
lost, or misplaced and is subject to exceptional physical security, protection, control, and accountability.
Examples include weapons, ammunitions, radioactive material, explosives, controlled substances,
hazardous materials or wastes, or precious metals.
3
  According to DFARS 252.211-7007, item unique identification means a system of assigning, reporting,
and marking DoD property with unique item identifiers, which have machine-readable data elements to
distinguish an item from all other like and unlike items.


                                                       7
solicitation for the K-BOSSS, SSA, and ASP contracts, the incoming performance
contractors may not be equipped to implement this requirement. Further, the contractor’s
proposal could not have included the costs to implement the use of IUID. According to
ACC-RI officials the addition of the IUID clause to the K-BOSSS and SSA contracts did
not increase costs; however, the IUID requirement could have increased costs had the
contractor not been equipped to meet the requirements.

The ACC-RI PCOs assigned to the contracts should immediately modify the SSA
contract to include the clause in accordance with DFARS.

Conclusion
ACC-RI officials did not fully implement best contracting practices during the transition
and award of the K-BOSSS, SSA, and ASP contracts, which could affect the quality of
the administration and oversight of these contracts. ACC-RI officials did not implement
a recurring process to validate contract requirements, establish fixed prices for portions of
the contracts with well-defined requirements, or ensure consistency in an environment
where Government personnel frequently rotate and did not implement the IUID
requirement even though it was a standard requirement for more than 2 years before the
K-BOSSS, SSA, and ASP contracts were awarded.

Management Comments on the Finding and Our
Response
Management Comments
The Executive Director, ACC, informed the audit team that Rock Island Contracting
Center changed its name to Army Contracting Command-Rock Island. As a result, he
asked that the name of the contracting center be corrected throughout the report.

Our Response
We changed the name of the contracting center to Army Contracting Command-Rock
Island, as requested.

Recommendations, Management Comments, and Our
Response
Redirected Recommendations
As a result of management comments, we redirected draft Recommendation 1a-g to the
Executive Director, ACC-RI.
1. We recommend that the Executive Director, Army Contracting Command-Rock
Island, direct the procuring contracting officers assigned to the Kuwait Base
Operations and Security Support Services, Ammunition Supply Point, and Supply
Support Activity contracts to:




                                             8
       a. Establish a recurring process to validate requirements with the requiring
military units, to verify that performance work statements adequately define
contract requirements, and modify the contracts to match the validated user
requirements.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that 90 days prior to the exercise of
the next option year, he will request revalidation of the performance work statement and
all supporting documentation, such as Technical Exhibits and Contract Data
Requirements Lists, by the requiring military units, to ensure that the contract documents
accurately reflect the mission requirements at that time. Additionally, the Executive
Director stated that the contractors will then be asked to provide the procuring
contracting officer with any necessary updated pricing information due to any
requirements changes for evaluation prior to the exercise of the next option year.

The Executive Director stated that in addition to the yearly revalidation process, the
performance work statement details a Change Management Process and any changes to
the contract made throughout the year are tracked and properly vetted through all
applicable parties. The Executive Director stated that the Kuwait Base Operations
Supply and Support Services Contract Change Order Request, implemented in
April 2011, is the form used to track the change process. The Executive Director stated
that the form has allowed for greater visibility of all Kuwait Base Operations changes and
is currently being implemented for use with both the Supply Support Activity and
Ammunition Supply Point contracts, targeted for completion at the end of third quarter,
FY 2011.

Our Response
The Executive Director, ACC-RI, corrective actions taken and targeted completion for
the requirements validation process meet the intent of the recommendation. The
Executive Director response included the performance work statement Change
Management Process contract clause and the K-BOSSS Change Order Request Form.
Therefore, no further comments are required.

       b. Develop a central repository for the performance requirements and any
updates, to verify that the requirements are inclusive and readily available to
Government surveillance officials to validate that their reviews encompass all
contract performance requirements.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that the contractor developed a
SharePoint system as the central repository for the contract, to include performance
requirements and all deliverables. The Executive Director stated that all Contract Data
Requirements Lists are submitted by the contractor, an e-mail is generated to the
applicable contracting officer representatives, DCMA, and PCO, notifying each party that
the document has been delivered to the SharePoint folder, which all parties can access.


                                            9
Additionally, the Executive Director stated that all contract modifications, conformed
copy of the contract, and all attachments are provided to DCMA upon PCO signature.
The Executive Director also pointed out that the contract and all modifications can be
viewed in the Electronic Document Access, which serves as a second central repository.
The Executive Director stated that in order to further allow for availability by all parties,
all contract attachments will be uploaded to the Electronic Document Access by
August 30, 2011.

Our Response
Comments from the Executive Director, ACC-RI, indicate that actions that meet the
intent of the recommendation have been taken. Therefore, no further comments are
required.

      c. Establish fixed prices for commercial items in the performance work
statement.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that due to the continuous changes
in mission requirements and the environment of the Kuwait Area of Responsibility, the
K-BOSSS, SSA, and ASP contracts represent service requirements that are largely
noncommercial and driven by level of effort labor. The Executive Director stated that
before the recompetition of these requirements, any requirements that were known to be
stable enough for fixed pricing were pulled out and competed separately by ACC-RI as
stand-alone, fixed-price contracts. In addition, the Executive Director stated that
contractors for these three contracts are encouraged to use fixed-price contracts for all
commercial items when available. The Executive Director stated that as these contracts
move forward and more statistical data become available reflecting trends in the overall
mission requirements, continued efforts will be made to identify opportunities to use
fixed prices. The Executive Director set a target completion date for evaluating statistical
data and fixed-price opportunities for the end of the third quarter, FY 2011.

Our Response
Planned actions of the Executive Director, ACC-RI, to identify opportunities to use fixed
prices on the Kuwait contracts and actions taken to pull requirements stable enough
for fixed pricing and compete the requirements separately meet the intent of the
recommendation.

       d. Use the historical data from the Combat Support Services Contract-
Kuwait and information developed by market research teams to identify goods or
services that could be purchased at a fixed price and develop fixed prices for these
items and include these prices before the next contract option is exercised.

Management Comments
The Executive Director, ACC-RI, partially agreed. He stated that as discussed for
Recommendation 1c, the availability of items and services allowing for a fixed-price


                                             10
acquisition under the K-BOSSS, SSA, and ASP contracts is extremely limited. The
Executive Director stated that all effort is being made to ensure that fixed prices are used
to the maximum extent practicable for subcontractors. Additionally, the Executive
Director stated that the historical Combat Support Associates information is seriously
flawed and the use of such information would not be advantageous to the Government.
However, the Executive Director stated that as part of the revalidation process, discussed
in Recommendation 1a, the procuring contracting officer will review the stability of the
overall requirements and market conditions to identify opportunities to appropriately
apply fixed prices to any aspects of the prime contractors’ responsibilities. The
Executive Director set a target completion date for revalidation of requirements by the
procuring contracting officers to identify fixed-price opportunities by the end of the third
quarter, FY 2011.

Our Response
Although the Executive Director, ACC-RI, only partially agreed, actions that will be
taken by the PCO to review the stability of the overall requirements and market
conditions to identify opportunities to use fixed prices meet the intent of the
recommendation. Therefore, no further comments are required.

       e. Perform detailed reviews of the contractor invoices to validate that all
invoiced amounts are allowable, allocable, reasonable, and in accordance with the
contract.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that before award of the contracts,
multiple teams, including technical experts and DCAA auditors, evaluated costs to
determine whether they were allowable, allocable, reasonable, and in accordance with the
contract requirements as solicited. The Executive Director enclosed an April 14, 2008,
document from the Under Secretary of Defense for Acquisition, Technology and
Logistics, which directed that DCAA has sole authority for verifying claimed costs on
cost-reimbursable contracts. However, the Executive Director stated that to encourage
enhanced review and invoice accuracy, the procuring contracting officer has negotiated
additional invoice review procedures with the contractor and has incorporated these
review procedures into the contract. The Executive Director stated that these procedures
are designed to ensure that the contracting officer representative, administrative
contracting officer, and procuring contracting officer are reviewing the contractors’
invoiced costs to ensure that costs are in accordance with contractual terms and services
provided. The Executive Director set a target completion date for the deliverables for
this recommendation for end of the third quarter, FY 2011, and provided a copy of the
invoice instructions, which were incorporated into the contract by the PCO.

Our Response
Comments from the Executive Director, ACC-RI, meet the intent of the recommendation.
We request that the Executive Director clarify whether the contracting officer




                                             11
representatives receive all back-up attachments for invoices to assist them in their invoice
reviews.

       f. Establish regular meetings to validate that the Defense Contract
Management Agency performs all billing responsibilities to include proper
acceptance of supplies and services and proper validation of invoices.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that all billing responsibility for
verifying claimed costs lies with the Defense Contract Audit Agency. The Executive
Director stated that on April 26, 2011, the PCO, contract specialists, and ACC-RI price
analysts met with DCAA and DCMA officials responsible for oversight of the three
contracts in Kuwait to further discuss oversight of the contracts. The Executive Director
stated that ACC-RI, DCAA, and DCMA representatives in Kuwait hold a weekly
teleconference, to ensure complete communication among all parties.

Our Response
Comments from the Executive Director, ACC-RI, indicate that actions that meet the
intent of the recommendation have been. Therefore, no further comments are required.

        g. Modify the Supply Support Activity contract to include the item unique
identification property requirement clause from Defense Federal Acquisition
Regulation Supplement 252.211-7007.

Management Comments
The Executive Director, ACC-RI, agreed. He stated that modification P00005 to the SSA
contract included the 252.211-7007 clause, which was signed by the PCO on
May 9, 2011. The Executive Director provided a copy of the modification to the
contract.

Our Response
The Executive Director, ACC-RI, took corrective actions and provided the audit team
with a copy of the modification incorporating clause 252.211-7007 into the SSA contract.
Therefore, no further comments are required.




                                            12
Appendix. Scope and Methodology
We conducted this performance audit from August 2010 through May 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the second of a series of audit reports on the management and administration for
contracts supporting base operations in Kuwait. For this report, we focused on the
K-BOSSS, SSA, and ASP contracts. To determine whether ACC-RI properly solicited
and awarded the three Kuwait base operations contracts, we interviewed personnel
involved in the management and oversight of the solicitation, reviewed the K-BOSSS,
SSA, and ASP contracts and solicitation documents, and reviewed documents as
described below. Specifically, we visited the following locations:

   •   ACC-RI, Rock Island, Illinois
   •   DCMA International, Alexandria, Virginia
   •   DCMA-Houston, Houston, Texas
   •   DCMA-Kuwait, Camp Arifjan, Kuwait
   •   Contractor Kuwait Offices, Camp Arifjan, Kuwait
   •   DCAA Kuwait Offices, Camp Arifjan, Kuwait

We reviewed the FAR, DFARS, Department of Defense Procedures, Guidance, and
Information, and DoD guidelines to determine contract management and administration
responsibilities. We reviewed the K-BOSSS, SSA, and ASP solicitation and contract
documentation to determine whether ACC-RI complied with the OUSD AT&L
memorandum, “Better Buying Power: Guidance for Obtaining Greater Efficiency and
Productivity in Defense Spending;” and whether ACC-RI officials implemented controls
to avoid the cost increases that occurred on the CSSC-K contract. We also reviewed
DoD IG Report, “Contingency Contracting: Framework for Reform,” May 14, 2010, and
determined that the issues we identified were systemic issues within DoD.

We reviewed the performance work statements for the follow-on contracts to determine
whether ACC-RI officials complied with the FAR. We also reviewed the property
listings for the K-BOSSS, SSA, and ASP contracts and compared them with our sample
from the CSSC-K contract property list to determine whether the contractor accounted for
all property that should transfer to the K-BOSSS, SSA, and ASP contracts. To obtain our
sample of 225 items, we judgmentally selected high-dollar items, valued at
approximately $13.4 million, and sensitive items, valued at approximately $664,000, at
Camp Arifjan and Camp Buehring. We verified the serial numbers and barcodes and
whether the items could be located using the information provided for each item. Our
sample consisted of a records-to-floor sample where we judgmentally selected 138 high-
dollar and sensitive items. We also conducted a floor-to-records sample where we


                                           13
judgmentally selected 87 high-dollar and sensitive items and searched for them in the
property list by barcode, serial number, and description. Finally, we reviewed the
K-BOSSS, SSA, and ASP solicitations and contracts for compliance with the IUID
requirements in the DFARS.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a Web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout the DoD. We used documents retrieved from Electronic Document Access to
determine the approximate value of the CSSC-K contract. We compared our analysis of
the contract modifications with data provided by the contracting office to verify the
CSSC-K contract value. As a result of our analysis, we determined that the Electronic
Document Access Web site was sufficiently reliable for the purpose of determining the
approximate value of the CSSC-K contract.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued three
reports, the DoD IG issued four reports, and the Army Audit Agency issued one report
discussing contracts supporting bases in Kuwait. Unrestricted GAO reports can be
accessed at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil. Unrestricted Army reports can be accessed from .mil and gao.gov
domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-10-376, “Operation Iraqi Freedom: Actions Needed to Facilitate
the Efficient Drawdown of U.S. Forces and Equipment from Iraq,” April 2010

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definition Time Frames Often Not Met,” June 2007

GAO Report No. GAO-07-145, “Military Operations: High-Level DOD Action Needed
to Address Long-Standing Problems With Management and Oversight of Contractors
Supporting Deployed Forces,” December 2006

DoD IG
DoD IG Report No. D-2011-033, “DoD Needs to Improve the Management and
Oversight of Operations at the Defense Reutilization and Marketing Office-Camp
Arifjan, Kuwait,” January 12, 2011

DoD IG Report No. D-2010-091, “DOD Needs to Improve Management and Oversight
of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,” September 30, 2010

DoD IG Report No. D-2010-085, “Kuwait Contractors Working in Sensitive Positions
Without Security Clearances or CACs,” September 22, 2010


                                           14
DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

Army
Army Audit Agency Report No. A-2009-0132-ALL, “Contracting Operations: U.S.
Army Contracting Command Southwest Asia - Kuwait,” September 29, 2009




                                       15
U.S. Army Materiel Command Comments




                 Click to add JPEG file
U.S. Army Contracting Command Comments

                                            Final Report
                                             Reference




                 Click to add JPEG file




                                          Redirected


                                          Revised
U.S. Army Contracting Command-Rock Island Comments




                  Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
